                            Office of the Inspector General

August 29, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Old-Age, Survivors and Disability Insurance Benefits Paid to Fugitives (A-01-00-10014)


Attached is a copy of our final report. Our objective was to determine whether the
Social Security Administration should pursue legislation to prohibit Old-Age, Survivors
and Disability Insurance benefits to fugitives, similar to the provisions pertaining to
Supplemental Security Income payments under Public Law 104-193.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on each recommendation. If you wish to discuss the final report,
please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
General for Audit, at (410) 965-9700.




                                                James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




     OLD-AGE, SURVIVORS AND
      DISABILITY INSURANCE
    BENEFITS PAID TO FUGITIVES

   August 2000     A-01-00-10014




   AUDIT REPORT

                                         Executive Summary
OBJECTIVE

Our objective was to determine whether the Social Security Administration (SSA)
should pursue legislation to prohibit Old-Age, Survivors and Disability Insurance
(OASDI) benefits to fugitives, similar to the provisions pertaining to Supplemental
Security Income (SSI) payments under Public Law (P.L.) 104-193.

BACKGROUND

The OASDI program provides retirement benefits to insured individuals who have
reached the minimum retirement age, survivors’ benefits to dependents of insured
wage earners in the event the family wage earner dies, and disability benefits to
disabled wage earners and their families. The SSI program provides income to
financially needy individuals who are aged, blind, or disabled.

In August 1996, title XVI of the Social Security Act was amended by the Personal
Responsibility and Work Opportunity Reconciliation Act of 1996 (P.L. 104-193) to
prohibit SSI benefit payments to fugitive felons. However, title II of the Social Security
Act was not similarly amended to prohibit OASDI benefits to fugitive felons. Currently, a
fugitive felon is eligible to receive OASDI benefits, but he or she is not eligible to receive
SSI benefits.

RESULTS OF REVIEW
SSA should pursue legislation to prohibit the payment of OASDI benefits to fugitives.
Based on the results of our statistical sample, we estimate that at least 17,300 fugitives
were paid at least $108 million in OASDI payments between August 1996 and the date
we reviewed the sample cases. We also estimate that fugitives will continue to receive
at least $39 million in OASDI benefits during the next year if legislation is not enacted to
prohibit such benefit payments. The fugitives identified during our review are wanted
for serious offenses and parole/probation violations.

Additionally, about 40 percent of the fugitives in our review receiving OASDI benefits
also received SSI benefit payments. Although about $597,000 in SSI payments paid to
the fugitives in our sample are considered overpayments, these fugitives remain entitled
to about $1.7 million in OASDI benefits they were paid since August 1996 and will
continue to be entitled to future OASDI payments unless the law is changed. Also,
even though SSA has address information for these fugitives, under current law, SSA
can only share information on fugitives receiving SSI benefits. For fugitives only
receiving OASDI benefits, SSA cannot share address information about these
potentially dangerous fugitives with law enforcement agencies to assist in their
apprehension.



OASDI Benefits Paid to Fugitives (A-01-00-10014)                                         i
CONCLUSION AND RECOMMENDATION
Although the OASDI program is an entitlement program in which beneficiaries have
paid into the Social Security trust funds, we believe that SSA should not provide OASDI
benefits to fugitive felons. These benefit payments may finance a potentially dangerous
fugitive’s flight from justice. Additionally, we believe that implementation of a fugitive
non-payment provision in the OASDI program would assist SSA in presenting a
consistent message to the public of “zero tolerance for fraud and abuse.” The current
statutory provisions are inconsistent in that fugitives are prohibited from receiving one
type of Social Security benefit, but can continue to receive a second type of benefit
payment. Further, while both OASDI and SSI benefit payments are suspended for
prisoners, only SSI benefit payments are suspended for fugitive felons. As a result, a
prisoner cannot receive OASDI benefits, but a fugitive felon can.

Based on the results of our review, we recommend that SSA pursue legislation
prohibiting payment of OASDI benefits to fugitives similar to the provisions pertaining to
SSI payments under P.L. 104-193.

AGENCY COMMENTS
In response to our draft report, SSA stated it was not prepared at this time to agree to
pursue legislation. However, SSA agreed to assess our recommendation and provide
the results of its assessment within 60 days. (See Appendix B for SSA’s comments to
our draft report.)

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We believe our report demonstrates the need for SSA to pursue legislation prohibiting
OASDI benefits to fugitives, and we urge SSA to agree with our recommendation after
its own assessment is complete.




OASDI Benefits Paid to Fugitives (A-01-00-10014)                                      ii
                                                          Table of Contents

                                                                                                              Page

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 3

    Fugitives Receiving OASDI Benefits ................................................................. 3

    Types Of Felony Warrants Issued For OASDI Beneficiaries ............................ 5

    Fugitives Receiving Both OASDI And SSI Benefits .......................................... 6

CONCLUSION AND RECOMMENDATION ........................................................... 8

APPENDICES

Appendix A – Sampling Methodology and Results

Appendix B – Agency Comments

Appendix C – OIG Contacts and Staff Acknowledgments

Appendix D – SSA Organizational Chart




OASDI Benefits Paid to Fugitives (A-01-00-10014)
                                                                   Acronyms

 BIC                Beneficiary Identification Code

 MBR                Master Beneficiary Record

 OASDI              Old-Age, Survivors and Disability Insurance

 OI                 Office of Investigations

 OIG                Office of the Inspector General

 P.L.               Public Law

 SSA                Social Security Administration

 SSI                Supplemental Security Income





OASDI Benefits Paid to Fugitives (A-01-00-10014)
                                                                     Introduction

OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA)
should pursue legislation to prohibit Old-Age, Survivors and Disability Insurance
(OASDI) benefits to fugitives,1 similar to the provisions pertaining to Supplemental
Security Income (SSI) payments under Public Law (P.L.) 104-193.

BACKGROUND

The OASDI program provides retirement benefits to insured individuals who have

reached the minimum retirement age, survivors’ benefits to dependents of insured

wage earners in the event the family wage earner dies, and disability benefits to

disabled wage earners and their families. The SSI program provides income to

financially needy individuals who are aged, blind, or disabled.


In August 1996, section 1611(e) of the Social Security Act was amended by the

Personal Responsibility and Work Opportunity Reconciliation Act of 1996

(P.L. 104-193) to prohibit SSI benefit payments for any month during which an

individual is: (1) fleeing to avoid prosecution for a crime which is a felony (or in New

Jersey, a high misdemeanor); (2) fleeing to avoid custody or confinement after

conviction for a crime which is a felony (or in New Jersey, a high misdemeanor); or

(3) violating a condition of probation or parole imposed under Federal or State law.

This provision applies solely to SSI recipients and not to OASDI beneficiaries, even

though many beneficiaries receive benefits concurrently under both the SSI and OASDI

programs.2


In a regulatory commentary dated December 1997, the Office of the Inspector General

(OIG) recommended that SSA seek a legislative change to expand the SSI fugitive

felon payment prohibition to the OASDI program. In addition, the OIG stated that

expansion of the SSI fugitive non-payment provisions to the OASDI program would

further SSA’s Strategic Plan objective of “zero tolerance for fraud and abuse.” To date,

SSA has not proposed the recommended legislative change.





1
  Throughout the report when we use the term “fugitive felons,” we are referring to those fugitives
specifically prohibited from receiving SSI benefits under P.L. 104-193, including parole and probation
violators.
2
 Individuals receiving benefits under both the SSI and OASDI programs are called concurrent
beneficiaries.


OASDI Benefits Paid to Fugitives (A-01-00-10014)                                                         1
This is our third report on the fugitive felon issue. In our first report, we provided the
results of a survey of the 50 States regarding the availability of fugitive files that are not
                             3
currently provided to SSA. Our second report reviewed SSA’s efforts to identify and
prevent SSI benefit payments to fugitive felons in accordance with P.L. 104-193.4

SCOPE AND METHODOLOGY

To accomplish our objective, we matched a random sample of 10 State fugitive files5
against the Master Beneficiary Record (MBR) to identify fugitive felons receiving OASDI
benefits. We then selected a random sample of 375 fugitive felon records, using a
multi-stage sampling design. The 10 State fugitive files were obtained between
February 1999 and April 2000 as part of our audit of fugitives receiving SSI payments.
These 10 State fugitive files were matched against our MBR extract file of individuals
receiving OASDI benefit payments as of March 1999. (See Appendix A for details of
our sampling methodology.)

For most of the fugitives in our sample, we did not confirm the warrants with law
enforcement officials since we were unable to share SSA’s address information with
them under the current law. However, we did confirm the 85 warrants for Idaho and
Maine.6 The files Idaho and Maine provided did not include the date of the warrant.
Therefore, we contacted the responsible law enforcement officials to obtain this date
(which was needed to calculate the amount of OASDI benefits paid since issuance of
the felony warrant) and we confirmed whether the individual was wanted for a felony
charge. Therefore, our results are largely based on our computer matching of State
fugitive files with SSA’s records.

We conducted our review between March 1999 and May 2000 in Boston,
Massachusetts. We conducted our review in accordance with generally accepted
government auditing standards.




3
    “Survey Results for Identification of Fugitives Receiving Benefits” (A-01-98-63002), July 1998.
4
    “Identification of Fugitives Receiving Supplemental Security Income Payments” (A-01-98-61013).
5
 The 10 States were Alabama, Colorado, Idaho, Illinois, Iowa, Maine, Nebraska, New Mexico, Oregon,
and Texas. Each State’s file was verified through SSA’s Enumeration Verification System and only Social
Security numbers that were verified were matched against the MBR.
6
    There were 39 warrants for Idaho and 46 warrants for Maine.


OASDI Benefits Paid to Fugitives (A-01-00-10014)                                                      2
                                               Results of Review

SSA should pursue legislation to prohibit the payment of OASDI benefits to fugitives.
We estimate that at least 17,300 fugitives were paid at least $108 million in OASDI
payments between August 1996 and the date we reviewed the sample cases. We also
estimate that fugitives will continue to receive at least $39 million annually in OASDI
benefits if legislation is not enacted to prohibit such benefit payments. The fugitives
identified during our review are wanted for felony offenses. Even though SSA has
address information for these fugitives, under current law, SSA cannot share
information about these potentially dangerous fugitives with law enforcement agencies
to assist in their apprehension.

Additionally, about 40 percent of the fugitives in our review receiving OASDI benefits
also received SSI benefit payments. Although about $597,000 in SSI payments paid to
the fugitives in our sample are considered overpayments, these fugitives remain entitled
to about $1.7 million in OASDI benefits they were paid since August 1996 and will
continue to be entitled to future OASDI payments unless the law is changed.

FUGITIVES RECEIVING OASDI BENEFITS

Our one-time computer match between 10 State fugitive files and SSA’s records
identified 3,929 fugitive felons potentially receiving OASDI benefits. We sampled and
reviewed 375 of the 3,929 fugitives and found that 364 (97 percent) of the sampled
fugitives received OASDI benefits after their felony warrants were issued by the law
enforcement agencies.7 If the SSI fugitive felon provisions of P.L. 104-193, which took
effect in August 1996, had been applied to the OASDI program, these 364 fugitives
would not have been entitled to the $5.42 million in OASDI benefits they received. The
table on the next page shows the results of our sample.




7
 We confirmed 85 of the 375 warrants (23 percent) and found that 82 warrants were still outstanding. We
did not confirm the remaining warrants, but instead relied on the computer matching results.


OASDI Benefits Paid to Fugitives (A-01-00-10014)                                                  3
                         Number
                        Receiving                          Number of        Amount of        Number of
                          OASDI                             Sample            OASDI           Fugitives
                         Benefits                            Cases           Benefits        in Sample
                        Based on          Number in           Paid            Paid to         Not Paid
                        Computer            OIG              OASDI         Fugitives in        OASDI
         State            Match            Sample           Benefits         Sample           Benefits8
    Alabama                 149               50               49            $656,348              1
    Colorado                462               50               48             861,144              2
    Idaho                    39               39               38             612,907              1
    Illinois                690               35               34             448,641              1
    Iowa                    200               50               50             653,686              0
    Maine                    46               46               43             594,632              3
    Nebraska                  7                7                 7             96,202              0
    New Mexico               12               12               12             121,962              0
    Oregon                  614               50               48             928,407              2
    Texas                 1,710               36               35             446,492              1
        TOTAL             3,929              375              364          $5,420,421            11


If legislation is not enacted to prevent OASDI benefit payments to fugitives, we estimate
that fugitive felons will be paid at least $39 million in OASDI benefits annually. An
example of a fugitive case in our review involves an individual who started receiving
OASDI benefits in January 1974. In March 1994 a felony warrant was issued for the
beneficiary’s arrest on sexual assault charges. Between August 1996 and October
1999, about $21,600 in OASDI benefits was paid to this fugitive felon. If the fugitive
had been an SSI recipient, instead of an OASDI beneficiary, SSA could have stopped
the $21,600 in benefit payments. However, due to the current provisions of the Social
Security Act, SSA cannot stop the monthly $567 OASDI benefit from being paid to this
fugitive felon. Also, the $21,600 in OASDI benefits cannot be classified as an
overpayment and collection action cannot be pursued since there is no payment
prohibition for fugitive felons under the OASDI program. Additionally, we cannot divulge
this fugitive felon’s current address to law enforcement officials to assist in the fugitive’s
apprehension.




8
    These fugitives did not receive OASDI benefits after the date their felony warrants were issued.


OASDI Benefits Paid to Fugitives (A-01-00-10014)                                                       4
TYPES OF FELONY WARRANTS ISSUED FOR OASDI BENEFICIARIES
The fugitives identified during our review are wanted for felonies, as well as parole and
probation violations. Specifically, the chart below shows the breakdown, by crime, of
the 3,929 fugitives potentially receiving OASDI benefits.9



                           Type of Crime Committed by Fugitives
                           Potentially Receiving OASDI Benefits


                                                              Homicide, Kidnapping, Sexual
                             3%
                                    7%                        Assault (3%)

                                            9%                Robbery, Burglary, Larceny,
                                                              Stolen Vehicles (7%)

                                                              Assault (9%)
                                                 12%
     53%                                                      Drugs (12%)


                                                              All Other Felons (16%)
                                           16%
                                                              Parole/Probation Violations (53%)




The OIG, Office of Investigations (OI) Special Agents cannot assist law enforcement
officials by providing SSA address information for these fugitive felons receiving OASDI
benefits, even though this authority exists under the SSI program.10 In the example
described on page 4, SSA knows where the OASDI beneficiary is living, but OI Special
Agents cannot share this information with the law enforcement agency to assist them in
executing the warrant for sexual assault issued for the fugitive.

Between August 1996 (the effective date of P.L. 104-193) and October 12, 1999, OI
Special Agents assisted Federal, State, and local law enforcement officials in the arrest
of 1,853 fugitive felons receiving SSI payments. The apprehension of fugitive felons


9
 Two States (Idaho and Nebraska) did not provide a breakdown of the fugitive felons by type of crime.
Therefore, these 46 fugitives are classified in the “All Other Felons” category in the graph.
10
  Section 1611(e)(6) of the Social Security Act allows SSA to furnish law enforcement officers with
address information in certain circumstances related to fugitive felons receiving SSI payments.


OASDI Benefits Paid to Fugitives (A-01-00-10014)                                                      5
could increase significantly if legislation were enacted to allow SSA to furnish law
enforcement agencies with the current address of fugitive felons receiving OASDI
benefits.

FUGITIVES RECEIVING BOTH OASDI AND SSI BENEFITS

                                                                 Based on the cases
                 Concurrent Fugitive Felons                      in our sample,
                                                                 approximately
                 Based on Computer Match	
                                                                 40 percent of the
                                                                 OASDI beneficiaries
                                                 OASDI &         who are fugitive
                                                    SSI          felons also received
                                                  Benefits       SSI payments. SSA
         OASDI                                                   can stop the SSI
                                                    40%
        Benefits                                                 payments to these
          Only                                                   fugitives and pursue
                                                                 collection action for
          60%
                                                                 any overpayments
                                                                 resulting from the
                                                                 fugitive’s receipt of
SSI benefits since P.L. 104-193 took effect. However, the OASDI benefits must
continue to be paid to these fugitive felons under current law.

For example, one of the concurrent beneficiaries in our review started receiving OASDI
benefits in August 1993 and SSI payments in June 1996. In July 1996, a warrant was
issued for the beneficiary’s arrest on a felony drug charge. Under current law, SSA is
prohibited from paying the SSI payment to this fugitive, but it must continue to pay the
OASDI benefit payment. Specifically, about $4,700 in SSI benefits paid between
August 1996 (the effective date of P.L. 104-193) and July 1999 (the date we reviewed
the case) can be classified as an overpayment and recovered.11 Also, future monthly
SSI payments can be stopped while this person remains a fugitive from justice.
However, under current law, about $11,700 in OASDI benefits paid to this fugitive
between August 1996 and July 1999 is not an overpayment. Further, the $336 monthly
OASDI benefit payment will continue to be paid to this fugitive felon indefinitely if
legislation is not enacted to prohibit such benefit payments. The following table
provides details on the OASDI beneficiaries in our sample also receiving SSI payments.




11
     SSA has applied administrative finality regulations which limit the overpayment period to 2 years.


OASDI Benefits Paid to Fugitives (A-01-00-10014)                                                          6
                               Number of
                Number of       OASDI                                               Amount of
                Fugitives     Beneficiaries             Number in    Amount of        OASDI
                Potentially       Also                     OIG      SSI Benefits     Benefits
                Receiving      Potentially               Sample        Paid to        Paid to
                  OASDI        Receiving                Receiving      Sample         Sample
                 Benefits     SSI Benefits                Both       Fugitives      Fugitives
                Based on       Based on       Number    OASDI and       Also           Also
                Computer       Computer        in OIG      SSI       Receiving      Receiving
     State        Match          Match        Sample     Benefits      OASDI            SSI
Alabama             149            70            50         18         $28,826       $167,252
Colorado            462           186            50         20          73,210        246,656
Idaho                39            21            39         16          67,081        227,429
Illinois            690           287            35         14          35,362        160,848
Iowa                200            87            50         18          68,369        180,280
Maine                46            17            46         12          23,807        103,200
Nebraska              7              7            7          7          20,574         96,202
New Mexico           12              6           12          5          18,048         31,037
Oregon              614           281            50         29         221,921        400,147
Texas             1,710           735            36         12          40,402        108,429
TOTAL             3,929         1,697           375        151        $597,600     $1,721,480

As shown above, 151 of the 375 (40 percent) OASDI beneficiaries wanted for felony
warrants also received SSI benefit payments. For our 375 sample cases,
approximately $597,000 in SSI payments paid to the 151 concurrent beneficiaries are
overpayments and can be recovered. However, under the current provisions of the
Social Security Act, no action can be taken to collect about $1.7 million in OASDI
benefits paid to these same fugitive felons. Further, the monthly OASDI benefit amount
will continue to be paid to these fugitive felons; thus financing the fugitives’ efforts to
elude apprehension by law enforcement officials.




OASDI Benefits Paid to Fugitives (A-01-00-10014)                                          7
                                                    Conclusion and
                                                   Recommendation
Although the OASDI program is an entitlement program in which beneficiaries have
paid into the Social Security trust funds, we believe that SSA should not provide OASDI
benefits to fugitive felons. These benefit payments may finance a potentially dangerous
fugitive’s flight from justice. Additionally, we believe that implementation of a fugitive
non-payment provision in the OASDI program would assist SSA in presenting a
consistent message to the public of “zero tolerance for fraud and abuse.” The current
statutory provisions are inconsistent in that fugitives are prohibited from receiving one
type of Social Security benefit, but can continue to receive a second type of benefit
payment. Further, while both OASDI and SSI benefit payments are suspended for
prisoners, only SSI benefit payments are suspended for fugitive felons. As a result, a
prisoner cannot receive OASDI benefits, but a fugitive felon can.

Based on the results of our review, we recommend that SSA pursue legislation
prohibiting payment of OASDI benefits to fugitives similar to the provisions pertaining to
SSI payments under P.L. 104-193.

AGENCY COMMENTS

In response to our draft report, SSA stated it was not prepared at this time to agree to
pursue legislation. However, SSA agreed to assess our recommendation and provide
the results of its assessment within 60 days.

Additionally, SSA had two specific comments on the information contained in our report.
First, SSA disputed our statement that it can share information with law enforcement
agencies for fugitives receiving SSI benefit payments, but cannot share this data for
fugitives only receiving OASDI benefits. Secondly, SSA disputed our conclusion that a
legislative change “would assist SSA in presenting a consistent message to the public
of zero tolerance for fraud and abuse.”

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We believe our report demonstrates the need for SSA to pursue legislation prohibiting
OASDI benefits to fugitives, and we urge SSA to agree with our recommendation after
its own assessment is complete. Additionally, we disagree with SSA’s two comments
regarding the disclosure of information to law enforcement agencies and the need for a
consistent message of “zero tolerance for fraud and abuse.”

On page 5 of this report, we refer to section 1611(e)(6) of the Social Security Act which
grants authority to SSA to furnish law enforcement officers with address information for


OASDI Benefits Paid to Fugitives (A-01-00-10014)                                      8
fugitives receiving SSI payments. This authority, which is in addition to the regulation
cited in SSA’s comments, specifically allows SSA to disclose address information for
fugitives receiving SSI payments. Section 1611(e)(6), however, does not pertain to
fugitives receiving OASDI benefits. Furthermore, the chart on page 5 shows that the
majority of OASDI fugitive cases would not meet the limited disclosure criteria set forth
in the regulation cited in SSA’s comments. Therefore, our statement in the report that
SSA OIG cannot share information for fugitives only receiving OASDI benefits with law
enforcement, even though this authority exists under the SSI program, is accurate.

With regard to SSA’s second comment, fugitives who escape from prison and continue
to receive OASDI benefits are violating the prisoner non-payment provisions in section
202(x)(1) of the Social Security Act. Therefore, these fugitives are committing fraud
and abuse against the OASDI program by not reporting their fugitive status to SSA.




OASDI Benefits Paid to Fugitives (A-01-00-10014)                                      9
                                         Appendices





OASDI Benefits Paid to Fugitives (A-01-00-10014)
                                                                                        Appendix A

Sampling Methodology and Results
From the Social Security Administration (SSA), we obtained an extract from the Master
Beneficiary Record (MBR) of Old Age, Survivors and Disability Insurance (OASDI)
beneficiaries who were eligible for payment in March 1999. We then matched a
random sample of 10 State fugitive files1 against the MBR extract to identify fugitives
receiving OASDI benefits. The table below shows the number and type of fugitive
warrants provided by each State.

                            Date Fugitive            Fugitives in              Type of Fugitive
                            File Received           Original State            Warrants in State
           State              from State                 File                        File
    Alabama                 January 2000                  2,495           Felons
    Colorado                   April 2000                17,048           Felons
    Idaho                    August 1999                    733           Felons
    Illinois                February 1999               248,311           Felons and misdemeanors
    Iowa                       May 1999                  38,702           Felons and misdemeanors
    Maine                    March 1999                   1,158           Felons
    Nebraska                 March 1999                  21,457           Felons and misdemeanors
    New Mexico              February 1999                37,706           Felons and misdemeanors
    Oregon                     April 2000               117,775           Felons
    Texas                   February 1999               362,0692          Felons and misdemeanors

Five of our 10 State fugitive files consisted of both felonies and misdemeanors.
Therefore, we had to separate the felons from the misdemeanors based on each
                                   3
fugitive’s four-digit offense code. Based on input from law enforcement officials, we
determined that the following offense codes relate to felons:

     •	 all codes starting with 09 (Homicide), 10 (Kidnapping), 11 (Sexual Assault),
        12 (Robbery), 13 (Assault), 20 (Arson), 21 (Extortion), 22 (Burglary), 24 (Stolen
        Vehicles), 49 (Flight-Escape);

1
 We initially obtained the 10 State fugitive files for our audit entitled “Identification of Fugitives Receiving
Supplemental Security Income Payments” (A-01-98-61013). The 10 States were randomly selected from
a population of 46 States (including the District of Columbia). At the time of our review, the remaining five
States were unable to provide electronic fugitive data to us. One of our initial 10 States (South Dakota)
was unable to provide a fugitive file so we randomly selected an alternate State (Alabama).
2
  We were only able to use 184,672 of the 362,069 Texas fugitive records due to incomplete or duplicate
(alias) information.
3
  Some States had a miscellaneous field on their fugitive files which detailed the criminal charges. We
reviewed this field to refine our classification of the records between felonies and misdemeanors.


OASDI Benefits Paid to Fugitives (A-01-00-10014)                                                        A-1
    •   certain codes starting with 35 (Dangerous Drugs); and

    •   codes 5011 (Parole Violation) and 5012 (Probation Violation).

Once we isolated the fugitive felons receiving OASDI benefits, we selected a random
sample of 50 fugitive felons from each State.4 If a State had fewer than 50 fugitive
felons receiving OASDI benefits, we reviewed all of the cases for that State.

For each sample case, we:
    •	 calculated the amount of OASDI benefits paid to the fugitive since August 1996
       or the date of the warrant (whichever date is later);
    •	 ascertained the monthly OASDI benefit payment as of June 1999 in order to
       estimate an annual benefit payment; and
    •	 determined whether SSI benefits were also paid to the fugitive and the amount of
       SSI payments, if any.

For most of the fugitives in our sample, we did not confirm the warrants with law
enforcement officials.5 Our results are based on our computer matching of State
fugitive files with SSA’s records.




4
  Texas and Illinois were the first two fugitive files we analyzed and we did not remove the fugitives with a
beneficiary identification code (BIC) other than “A” prior to selecting our sample. (BIC “A” is for the
primary claimant.) Our match identified children receiving OASDI benefits based on their parents’
earnings; and the parents were the fugitives, not the children. We refined our sampling technique, and for
the succeeding States in our sample, we only selected OASDI beneficiaries with a BIC equal to “A.” For
Texas and Illinois, sample populations of 2,295 and 999 (which included BICs other than “A”) were used to
select the secondary samples. BIC “A” only populations for Texas and Illinois are 1,710 and 690,
respectively. Also, our original samples of 50 cases each for Texas and Illinois were reduced to 36 and
35, respectively, after we removed cases with BICs other than “A.”
5
 We confirmed the warrants for Idaho and Maine. The files Idaho and Maine provided did not include the
date of the warrant. Therefore, we contacted the responsible law enforcement officials to obtain this date
(which was needed to calculate the amount of OASDI benefits paid since issuance of the felony warrant)
and we confirmed whether the individual was wanted for a felony charge.


OASDI Benefits Paid to Fugitives (A-01-00-10014)                                                     A-2
 Our sample results and projections are detailed in the tables below and on page A-4.

                           Sample Results and Attribute Projections
                                                               Number of Fugitives      Projection of
                        Population              Sample        in Sample Paid OASDI     Fugitives Paid
          State            Size                   Size               Benefits          OASDI Benefits
 Alabama                     149                   50                    49                     146
 Colorado                    462                   50                    48                     444
 Idaho                        39                   39                    38                      38
 Illinois                    690                   35                    34                     670
 Iowa                        200                   50                    50                     200
 Maine                        46                   46                    43                      43
 Nebraska                       7                    7                    7                       7
 New Mexico                   12                   12                    12                      12
 Oregon                      614                   50                    48                     589
 Texas                     1,710                   36                    35                   1,662
 10 State Total            3,929                  375                   364                   3,811
                                            Projection to 46 States in Population            17,535
                                                          Projection Lower Limit             17,327
                                                           Projection Upper Limit            17,743
Note:      All projections are at the 90-percent confidence level.



                      Sample Results and Dollar Projections for OASDI
                             Benefits Paid Since August 1996
                                                              OASDI Benefits         Projection of OASDI
                                                           Paid to Fugitives in        Benefits Paid to
                       Population          Sample              Sample Since            Fugitives Since
          State            Size              Size              August 1996               August 1996
 Alabama                     149               50                  $656,348                $1,955,916
 Colorado                    462               50                   861,144                  7,956,974
 Idaho                         39              39                   612,907                    612,907
 Illinois                     690              35                   448,641                  8,844,633
 Iowa                        200               50                   653,686                 2,614,744
 Maine                         46              46                   594,632                    594,632
 Nebraska                       7               7                    96,202                     96,201
 New Mexico                    12              12                   121,962                    121,962
 Oregon                      614               50                   928,407                11,400,840
 Texas                     1,710               36                   446,492                21,208,380
 10 State Total            3,929              375                $5,420,421               $55,407,189
                                        Projection to 46 States in Population            $254,873,073
                                                      Projection Lower Limit             $108,801,484
                                                       Projection Upper Limit            $400,944,663
 Note: All projections are at the 90-percent confidence level.




 OASDI Benefits Paid to Fugitives (A-01-00-10014)                                                A-3

                                Sample Results and Estimate of OASDI
                                Benefits Expected to Be Paid Annually
                                            Number of
                                             Fugitives                             Projection of
                                            Paid OASDI         Monthly OASDI      Monthly OASDI
                                              Benefits          Payments to        Payments to
                Population       Sample       During          Fugitives During   Fugitives During
      State         Size          Size       June 1999           June 1999          June 1999
Alabama               149           50            37                $24,060             $71,699
Colorado              462           50            38                 24,601             227,309
Idaho                  39           39            36                 20,861              20,861
Illinois              690           35            30                 18,675             368,154
Iowa                  200           50            45                 25,166             100,662
Maine                  46           46            41                 23,343              23,343
Nebraska                7            7              6                 2,643                2,643
New Mexico             12           12            12                  6,240                6,240
Oregon                614           50            40                 22,142             271,904
Texas               1,710           36            31                 18,798             892,881
10 State Total      3,929          375           316              $186,529           $1,985,696
                                       Projection to 46 States in Population         $9,134,199
                                                      Projection Lower Limit         $3,303,907
                                                      Projection Upper Limit        $14,964,490
                                                        Annualized Estimate
                                                                             6
                                                   (Projection X 12 Months)        $109,610,388
                                                                             6
                                        Annualized Estimate – Lower Limit           $39,646,884
                                                                             6
                                        Annualized Estimate – Upper Limit          $179,573,880
Note: All projections are at the 90-percent confidence level.




6
    This is a non-statistical estimate.




OASDI Benefits Paid to Fugitives (A-01-00-10014)                                            A-4

                                                   Appendix B


Agency Comments





OASDI Benefits Paid to Fugitives (A-01-00-10014)
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, "OLD AGE,
SURVIVORS, AND DISABILITY INSURANCE BENEFITS PAID TO FUGITIVES" (A-
01-00-10014)


Thank you for the opportunity to review the subject draft report. We offer the following
comments.

OIG Recommendation

    SSA should pursue legislation prohibiting payment of Old Age, Survivors, and
    Disability Insurance (OASDI) benefits to fugitives similar to the provisions
    pertaining to SSA payments under Public Law (P.L.) 104-193.

SSA Comment

While we are not prepared to agree to pursue legislation at this moment, we agree to assess this
recommendation and provide the OIG with the results of our assessment within 60 days.

Other Comments

The OIG report states that for fugitives receiving only Title II benefits, SSA cannot share
information with law enforcement agencies. The provision for law enforcement disclosure
contained in Regulation 401.155 permits disclosure of SSA information to law enforcement
agencies under certain conditions. Specifically, SSA may disclose information for law
enforcement purposes where a violent crime has been committed and the individual whose
information is being disclosed has been indicted or convicted of that crime, and the head of the
law enforcement agency makes a written request showing that these conditions are met. This
regulation balances the need of law enforcement for information while recognizing the individual
expectation of, and right to, confidentiality of information held on that individual by SSA.

The third sentence of the "Conclusion and Recommendation" on page ii of the Executive
Summary and page 8 of the draft report expresses the view that a legislative change to preclude
payment of OASDI benefits to fugitives and probation or parole violators "would assist SSA in
presenting a consistent message to the public of ‘zero tolerance for fraud and abuse.’" Persons
entitled to receive OASDI benefit payments that are fugitives or probation or parole violators are
not, by virtue of receiving payments that are due them under the statute, committing fraud against
the OASDI program or abusing the program. Thus, there is no apparent connection between the
recommended legislative change and the "zero tolerance for fraud and abuse" message.

.




OASDI Benefits Paid to Fugitives (A-01-00-10014)                                           B-2
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Roger J. Normand, Director, Disability Program Audit Division, (617) 565-1822

    Rona Rustigian, Deputy Director, (617) 565-1819


Acknowledgments
In addition to those named above:

    Judith Oliveira, Auditor-in-Charge

    Katie Hallock, Auditor

    Brian Jaspon, Auditor

    Kevin Joyce, Auditor

    Joseph LoVecchio, Auditor

    David Mazzola, Auditor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-01-00-10014.




OASDI Benefits Paid to Fugitives (A-01-00-10014)
                                                   Appendix D

SSA Organizational Chart




OASDI Benefits Paid to Fugitives (A-01-00-10014)
